No. 20-843

 

 

In THE
Supreme Court of the United States

NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., et al.,
Petitioners,

v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE

POLICE, et al.,
Respondents.

On Writ Of Certiorari To The
United States Court Of Appeals
For The Second Circuit

BRIEF OF AMICI CURIAE FPC AMERICAN
VICTORY FUND, COALITION OF NEW JERSEY
FIREARMS OWNERS, SAN DIEGO COUNTY GUN
OWNERS, ORANGE COUNTY GUN OWNERS,
RIVERSIDE COUNTY GUN OWNERS,
CALIFORNIA COUNTY GUN OWNERS, AND
KNIFE RIGHTS FOUNDATION, INC.

IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,162 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 20, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
